IN THE
SUPREME COURT OF THE UNITED STATES

CEDRIC DURAND COLLINS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
DECLARATION VERIFYING TIMELY FILING
Petitioner, Cedric Durand Collins, through undersigned counsel and
pursuant to SUP. CT. R. 29.2 and 28 U.S.C. ' 1746, declares that the Petition for
Writ of Certiorari filed in the above-styled matter was sent in an envelope via
third party commercial carrier for delivery within three days, addressed to the
Clerk of the Supreme Court of the United States, on the 25th day of February 2021,
which is prior to the time the petition for writ of certiorari is due on April 16, 2020.
MICHAEL CARUSO
FEDERAL PUBLIC DEFENDER
West Palm Beach, Florida
February 25, 2021

By: s/ Scott Berry
Scott Berry
Assistant Federal Public Defender
450 S. Australian Ave., Suite 500
West Palm Beach, FL 33401

